4
I

C@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-1647
VALERIE HANEY,
Petitioner,

Ve

CHURCH OF SCIENTOLOGY INTERNATIONAL
AND RELIGIOUS TECHNOLOGY CENTER,
DAVID MISCAVIGE, AND DOES 1-25,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE BRIEF AS AMICI CURIAE AND BRIEF OF AMICI CURIAE CONSTITUTIONAL LAW,
TORTS, AND RELIGION PROFESSORS AND SCHOLARS IN SUPPORT OF PETITIONER in

the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),

being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 3648 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 9th day of June, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

efi natin. | NOTARY-State of Nebraska
RENEE J. GOSS
efi natin. | Exp. September 5, 2023

Notary Public

Loos Oudrawhe Gh

41035
